/

No.

4.-

* 4

i-

3n

Supreme Court of tfyr ®mtefc States

Supreme Court, U.S.
FILED

MAR 2 6 2021

CHERI LYNNE MELCHIONE
Petitioner,

OFFICE OF THE CLERK

v.
i

TIMOTHY TEMPLE,
Respondent.

On Petition For Writ Of Certiorari
To The Florida Fifth District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

Cheri Melchione
1818 MLKBlvd #129
Chapel Hill NC 27514
dharmaone2020@gmail.com
919-240-5100

RECEIVED
APR 2 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

11

QUESTIONS PRESENTED
QUESTION ONE:
Did the Florida Fifth District Court of Appeal’s
unchecked power to withhold or strip jurisdiction
from the Florida Supreme Court to hear cases
involving the Florida and U.S. Constitutional Law
violate the Mother’s constitutional rights; especially
when it created a conflict of interest which allowed
the Florida District Court to prevent their own ruling
from being reviewed or overturned by the Florida
Supreme Court?
If allowed in state courts, could the U.S. District
Court of Appeals also be granted the exclusive power
to control the jurisdiction of the U.S. Supreme Court
which would give the U.S. District Court the ability
to prevent their own cases from ever being reviewed
or overturned by the U.S. Supreme Court?
QUESTION TWO:
Is it a constitutional violation for Florida courts
to divide people into unequal classes where some
people are allowed access to the jurisdiction of the
Florida Supreme Court while other people (with
cases of similar merit) are denied access to the
Florida Supreme Court based exclusively on which
party arbitrarily receives a “written opinion” from
the Florida District Courts; but where there is no
standard, no transparency, no oversight and no
predictable process by which someone is granted the

11

required written opinion? Is this practice especially a
violation when it applies to family law cases where
the courts have a legal monopoly over the families
and require parents to go through the court system
to resolve paternity matters, yet those parents are
now being denied full access to the available court
system (Boddie v. Connecticut)?
QUESTION THREE:
Did the Florida Family Court violate the
Mother’s constitutional rights by failing to render a
timely ruling for over 16 months and additionally
making an error in law which left the Mother pro se
during critical hearings for the child’s educational
and medical needs? (Is time of the essence in child
support cases?)

11

PARTIES TO THE PROCEEDINGS
Petitioner, Cheri Lynne
petitioner-appellant.

Melchione,

was

the

Respondent, the Timothy Temple, was respondent.
Other:
Potential Party of Interest: Florida Attorney
General, Ashley Moody. The Petitioner recognizes
that the Florida Attorney General (or other
substitute representative of the State of Florida) has
a potential interest in the outcome of this case and
may wish to submit a response or amicus curiae
brief.

Ill

TABLE OF CONTENTS
QUESTION PRESENTED................

n

PARTIES TO THE PROCEEDINGS

n

TABLE OF CONTENTS

m

TABLE OF APPENDIX CONTENTS

vi

TABLE OF AUTHORITIES

,V11

PETITION FOR WRIT OF CERTIORARI

9

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONALS
STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

ARGUMENT related to the PCA Standard

20

Florida’s Unequal Division Of Parties Into Classes
For Access To Supreme Court Jurisdiction
24
District Court’s Conflict Of Interest In Controlling
Supreme Court Jurisdiction
26
Right To Review v. Equal Access to the Supreme
Court
30
Legislative Purpose v. State’s Monopoly In Child
Support Cases Parent’s Right To Access Courts..32
CONCLUSION

40

VI

TABLE OF APPENDIX CONTENTS
Appendix A: DCA PCA Ruling
Appendix B: DCA Denial for Written Opinion
Appendix C: DCA Denial to Cert. Question
Appendix D: Family Court Order (Edu and Med)
Appendix E: Family Court Order (Temp Att. Fees)
Appendix F: Florida Supreme Court Dismissal for
Lack of Jurisdiction (Appeal #1)
Appendix G: Florida Supreme Court Dismissal
For Lack Of Jurisdiction (Appeal #2)
Appendix H: Constitutional and Statutory
Provisions

Vll

TABLE OF AUTHORITIES
FLORIDA CASES:
Elliott v. Elliott, 648 So. 2d 137 (Fla. 4th DCA
1994)
Foley v. Weaver Drugs, 177 So. 2d at 226
(Fla. 1965)
Gandy v. State, 846 So. 2d 1141 (Fla. 2003)
Jackson v. State, 926 So. 2d 1262 (Fla. 2006)
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980)
Jollie v. State, 405 So. 2d 418 (Fla. 1981)
Reaves v. State, 485 S.2d 829, 830 (Fla. 1986)
R.J. Reynolds Tobacco Co. v. Kenyon* 882 So. 2d
986 (Fla. 2004)
Rosen v. Rosen, 696 So. 2d 697, 699 (Fla. 1997)
Perlow v. Berg-Perlow, 875 So. 2d 383 (Fla.
2004)
Stallworth v. Moore, 827 So.2d 974 (Fla. 2002)
Taylor v. Knight, 234 So. 2d 156, 157 (Fla. 1st
DCA 1970)
Wells v. State, 132 So. 3d 1110 (Fla. 2014)
Whipple v. State, 431 So.2d 1011, 1013-14, 10151016 (Fla. 2d DCA 1983)

Vll

Florida Reports:
In re Report of the Committee on Dist. Court of
Appeal Workload & Jurisdiction-Rule of
Judicial Admin 2.036, 921 So. 2d 615, 617-18
(Fla. 2006)
Stephen Krosschell, DCAs, PCAs, and
Government in the Darkness, 1
Fla. Coastal L.J. 13, 31 (1999)
District Court PCA Opinion Data:
http://www.4dca.org/opinions/2014.rDcas.shtml
U.S. SUPREME COURT AUTHORITIES:
Boddie v. Connecticut, 401 U.S. 371 (1971).
Fla. Star v. B.J.F., 484 U.S. 984, 984 (1987)
Gideon v. Wainwright, 372 U.S. 335 (1963)
Tinker v. Des Moines Independent Community
School District, 393 U.S. 503, 505-06 (1969)
Spence v. Washington, 418 U.S. 405 (1974)
Troxel v. Granville, 530 U.S. 57 (2000)
United States v. Klein, 80 U.S. 128 (1871)
United States v. O’Brien, 391 U.S. 367 (1968)

K-

vu
OTHER AUTHORITIES:
PCA ARTICLES AS AN
AMICUS CURIAE BRIEF SUBSTITUTION
In lieu of an Amicus Curiae Brief for the
Petition Stage, the Mother submits the below list of
articles and reports which are critical reading and
directly on the topic of the Florida PCA Standard.
The below list of authorities has been written
by District Court Justices, Attorneys, Academics and
Others. The information contained in these articles
and the District Court Committee’s PCA Report is
absolutely essential information that will inform and
help the U.S. Supreme Court clerks and honorable
justices better understand the issue along with
showing the long tortured history and battle which
has been raging as a legal battle over the PCA
Standard for years.
PCA ARTICLE ONE:
Craig E. Leen, Without Explanation: Judicial
Restraint, Per Curiam Affirmances, and the Written
Opinion
Rule, 12 FIU L. Rev. 309 (2017).
DOI: https://dx.doi.Org/10.25148/lawrev.12.2.7
LINK:
https://ecollections.law.fiu.edu/cgi/viewcontent.cgi7ar
ticle= 1319&context=lawreview
PCA ARTICLE TWO:

Vll

England, Arthur J. PCAs In The DCAs: Asking For
Written Opinion From A Court That Has Chosen Not
To Write One. Florida Bar Vol. 78, No. 3 March
2004 Pg 10.
LINK:
https://www.floridabar.org/the-florida-bariournal/pcas-in-the-dcas-asking-for-written-opinionfrom-a-court-that-has-chosen-not-to-write-one/
PCA ARTICLE THREE:
Steven Brannock & Sarah Weinzierl, Confronting a
PCA: Finding a Path Around a Brick Wall, 32
Stetson L. Rev. 367 (2003)
LINK:
http s ://www. stetson, edu/law/lawreview/media/confro
nting-a-pca-finding-a-path-around-a-brick-wall.pdf
PCA ARTICLE FOUR:
Ezequiel Lugo, The Conflict PCA: When A Affirmance
Without Opinion Conflicts With A Written Opinion;
Florida Bar Vol. 85, No. 4 April 2011 Pg 46
LINK:
https://www.floridabar.org/the-florida-bariournal/the-conflict-pea-when-an-affirmance-withoutopinion-conflicts-with-a-written-opinion/

Vll

PCA ARTICLE FIVE:
Muniz, Michael H. Oh No! Not A Per Curiam
Affirmed Decision On My Appeal. Florida Bar Vol.
93, No. 3 May/June 2019 Pg26 Featured Article
LINK:
https://www.floridabar.org/the-florida-bar-iournal/ohno-not-a-per-curiam-affirmed-decision-on-mvappeal/#:~:text=An%20appellate%20court%20per%2
0curiam,courts%20of%20appeal%20(DCA)
PCA ARTICLE SIX:
Wolff, David E. The Extraordinary Remedy Of
Mandamus: A Creative Solution To Formidable
Jurisdictional Hurdles
Florida Bar Vol. 90, No. 2 February 2016 Pg 10
Featured Article
LINK:
https://www.floridabar.org/the-florida-bariournal/the-extraordinarv-remedv-of-mandamus-acreative-solution-to-formidable-lurisdictionalhurdles/

Vll

FINAL PCA REPORT BY
Affirmed Decisions, Judicial Management Council,
Final Report And Recommendations 25 (2000),
https://www.flcourts.Org/core/fileparse.php/260/urlt/p
ca-report.pdf; office of the state
Courts Administrator, Florida District Courts Of
Appeal: A Descriptive Review 33 (2006).
Agenda, Subcommittee On Per Curium Affirmances,
Florida Appellate Court Rules Committee 357-82
(June 26, 2015),
LINK:
https://www.flcourts.org/content/download/2182
13/file/pca-report.pdf
http ://www .floridabar. or g/cmdocs/cm205. nsf/
Criticism of the PCA Report:
The PCA Report’s Recommendations (or lack thereof)
https://www.lei-law.com/appeals/the-pca-reportsrecommendations-or-lack-thereof/
For the Statutory And Constitutional
Authorities Please See Appendix

r

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, hereafter called the Mother,
respectfully prays that a writ of certiorari issue to
review the judgment(s) below and in Appendix.
OPINIONS BELOW
The Fifth District Court of Appeals of Florida
(DCA) order Oct. 9, 2020. DCA Rehearing Order on
Oct 23, 2020. Ninth Circuit Court Decisions April
2020.
STATEMENT OF JURISDICTION
The Ninth Circuit Court issued an opinion on
April 21, 2020 related to temporary attorney fees
(App. E) and a separate order on April 27, 2020 for
the child’s educational fees (App. D). Both orders
were appealed in the Fifth District Court of Appeals.
The Fifth District Court of Appeals of Florida
entered a per curiam affirmed order (known in
Florida as a “PCA without an opinion”) on Oct. 9,
2020 (App. A). A rehearing was timely filed on Oct.
23, 2020 but denied on Nov. 6, 2020 (App. B).
However, without a written opinion from the Fifth
District Court, the Florida Supreme Court was
barred from Jurisdiction over the case and the Fifth
District Court became the “highest court” for
jurisdictional purposes of this particular case (Fla.
Star, 530 S.2d at 288.). The Fifth District Court then
issued a denial on the Motion to Certify a Question
on Dec. 4, 2020 (App. C). The Florida Supreme Court
then issued a dismissal due to lack of Jurisdiction

2

over the case on Jan. 12 and Jan. 20, 2020 (App. F;
App. G).
This Court may exercise jurisdiction under 28
U.S.C. § 1257(a).
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Constitutional provisions involved are
listed below the full text are set forth in Appendix H.
U.S.
U.S.
U.S.
U.S.

CONSTITUTION:
Const, amend. I
Const, amend. XIV, § 1
Const, article VI

FLORIDA CONSTITUTION:
Art. I, § 2, Fla. Const.
Art. I, § 9, Fla. Const.
Art. I, § 21, Fla. Const.
Art. V, § 3, Fla. Const.
Art. V, § 4, Fla. Const.
FLORIDA STATUTORY PROVISIONS
Fla. R. App. P. 9.030
Fla. R. App. P. 9.330
§ 61.16 (1), Fla. Stat. (2017)
§ 742.045, Fla. Stat. (2017)

wr
3

STATEMENT OF THE CASE:
LEGISLATIVE AND LEGAL HISTORY
OF THE PCA STANDARD
Per Curiam Affirmed (herein PCA)
The controversy in this case revolves around
“access to the Florida Supreme Court” and is rooted
in the interpretation by the District Court and
Florida Supreme Courts of Article V Section 3 of the
Florida Constitutional which gives discretionary
jurisdiction to the Florida Supreme Court to review
Florida District Court of Appeals cases (herein DCA
or District Court).
The Florida courts (through various cases)
converted access to the Supreme Court’s
Discretionary Jurisdiction into a singular “PCA
Standard” requiring a party to have a District
Court’s written opinion before their case is granted
Supreme Court jurisdiction.
However, no language exists in the Florida
Constitution which limits jurisdiction of the Supreme
Court to only classes of people who have been given a
District Court’s written opinion; in fact, a “PCA” and
a “District Court’s written opinion” are
not
mentioned anywhere in the Constitution.
The Florida Constitution (Art. V, § 3, Fla.
Const.) reads:

4
(2) Discretionary Jurisdiction. The discretionary
jurisdiction of the supreme court may be sought to
review:
(A) decisions of district courts of appeal that:
(ii) expressly construe a provision of the state or
federal constitution
(iv) expressly and directly conflict with a
decision of another district court of appeal or of the
supreme court on the same question of law;
The statewide controversy began when the
Florida courts interpreted the word “expressly” from
the above constitutional passage for the purpose of
deciding which cases were allowed access to supreme
court jurisdiction.
In a series of rulings over many years, the
Florida court’s began to narrowly define “expressly”
to be the exclusive domain of a District Court’s
“written opinion” (R.J. Reynolds Tobacco Co. v.
Kenyon, 882 So. 2d 986, 988-90 (Fla. 2004); Jenkins,
385 So. 2d at 1359); Additional rulings further
restricted and reduced the term “expressly” by
removing any ability of written dissents, concurring
opinions or citations to meet the new “written
opinion” standard for obtaining Supreme Court
jurisdiction {Jenkins v. State, 385 S.2d at 1359.;
Reaves v. State, 485 S.2d 829, 830 (Fla. 1986);Wells v.
State, 132 So. 3d 1110, 1113-14 (Fla. 2014)).

5
With the new PCA Standard, access to the
Supreme Court became highly exclusive and nearly
impossible to obtain. It’s estimated that “PCA’s
without an opinion” may account for over 70% of
rulings in the District Court which meant that under
the PCA Standard nearly two-thirds of population
are currently left without access to the
Supreme Court of Florida regardless of the merits
of their cases (Leen, Craig. Without Explanation
P-22).
Further, the Florida court’s interpretation of
“expressly” to exclusively be a “written” opinion was
in conflict with decades of U.S. Supreme Court’s
jurisprudence which had interpreted the word
“expression” for the U.S. Constitution (United States
v. O’Brien, 391 U.S. 367 (1968); Tinker v. Des Moines
Independent Community School District, 393 U.S.
503, 505-06 (1969). The U.S. Supreme Courts did not
believe the term “expression” should be so narrowly
defined as to only include the “written word” which
was often beyond reach in many cases but instead
the U.S. Supreme Court found that the term
“expression” should be broadly defined to include a
person’s acts, physical expressions or even the actual
outcome (Tinker v. Des Moines). More importantly,
the U.S. Supreme Court would determine how the
term “expression” fit in the context of each individual
case noting in Spence v. Washington (1974) that laws
dealing with flag burning or misuse are “directly
related to expression in the context of activity.”

6

But where the U.S. Supreme Court allows for a
‘case by case’ determination of the term “expression”;
Florida’s constitution hinges its entire
Supreme Court Jurisdiction on a single
interpretation of the word “expressly” and
never considers the facts of an individual case.
The Mother in her family court case believed
that a law was rendered invalid, her constitutional
rights violated, and the family and district court
rulings were in conflict with other district court and
supreme court cases (Perlow V. Berg-Perlow, 875 So.
2d 383 (Fla. 2004); Rosen v. Rosen, 696 So. 2d 697,
699 (Fla. 1997).
As a result, even if a PCA were given without an
opinion, the constructive and actual effect of the
ruling in the Mother’s case was to declare the
original trial judge’s ruling valid and enforceable
which “expressed,” an opinion albeit unwritten in
the Mother’s case: the result of that ruling created
a direct conflict in previous rulings and plainly
violated the Mother’s constitutional rights so the
conflict law and constitutional violations became the
real world results of the trial court and district court
rulings which were the direct expression that
resulted in the District Court’s PCA ruling. It
ultimately does not matter if the DCA provides a
verbose explanation if the end result of the ruling is
that conflict law is created and a constitutional
violation is created by the ruling.

7

It matters not if the declaration was done
by word or deed because the result in the real
world was the same.
Further, if the Florida. Supreme Court and
District Court really believe that a PCA is not
actually an opinion, then the District Courts have
actually waived their rights over the case and
jurisdiction should be immediately vest in the
Supreme Court to review the case on its merits in
cases where the DCA intentionally remains silent in
explaining their own rulings.
The U.S. Supreme Court has found the real
world impact of a ruling may actually be a better
indicator of when a law or ruling conflicts or declares
a law invalid; such is the difference between
“symbolic speech” and “pure speech” (Tinker v. Des
Moines; Spence v. Washington; United States v.
O’Brien).
However, the Florida Supreme Court loses the
power to consider what effect a ruling may “express”
on the case or in the real world because of the
restriction to the singular consideration of whether a
case has a “written opinion.
The PCA Standard also placed the District
Courts in an unresolvable conflict of interest
for several reasons.
The District Court’s historic use of a PCA
without written opinion was for the purposes of

8

judicial economy. District Justices cited that PCAs
without a written opinion were necessary to reduce
their workload and to make timely decisions; writing
an opinion in every case was deemed an impossible
task and often unnecessary in cases with clear and
established law (Elliott v. Elliott, 648 So. 2d 137, 138
(Fla. 4th DCA 1994; In re Report of the Committee on
Dist. Court of Appeal Workload & Jurisdiction-Rule
of Judicial Admin 2.036, 921 So. 2d 615, 617-18 (Fla.
2006).
However, the DCA’s historic use of PCA was in
immediate conflict with the newly required PCA
Standard which would require the DCA to provide a
written opinion to every party who wished to seek
Supreme Court Review of their case; in an effort to
ease the District Court’s burden, the Supreme Court
decided the DCA would not be “required” to provide a
written opinion to anyone; not even when requested
by the Supreme Court itself regardless of the merits
of their case (Foley v. Weaver, 177 So. 2d at 226).
This decision put the District Court in the
exclusive position of controlling the Supreme
Court’s discretionary jurisdiction. The Supreme
Court lost its’ own constitutionally granted
discretionary power. It was now the domain of the
District Court to control which of their DCA cases
could be reviewed or overturned by the Florida
Supreme Court; all the District Court had to do was
grant or deny a party a written opinion, creating a
unbounded conflict of interest.

9
There was no standard, no transparency, and no
procedure which the District Court was required to
follow in providing a written opinion. This began a
long, tortured and controversial history on use of the
PCA Standard between justices, scholars, attorneys
and parties which has been hotly debated for 20
years (See PCA Articles and PCA Report in Table of
Authorities).
Recognizing there were problems with the PCA
Standard, Florida established a PCA Committee. The
controversy ultimately led to an expansion of the
laws to allow a party to at minimum request that a
written opinion be provided by the District Court in
order to obtain Supreme Court review over their
case. (Amendments to Florida Rules of Appellate
Procedure, 827 So. 2d 888 (Fla. 2002)).
However, the expansion ended up doing nothing
to improve the PCA controversy because the same
PCA committee also declined to establish any
standard, checklist or procedure which would be
required to ensure the District Court was without
conflict and each person treated equally with the
rendering of a written opinion when requested (PCA
Articles and PCA Report).
So despite the legislative changes which allowed
a party to now request a written opinion when one
was not provided in the original PCA, the District
Court itself was still not required to provide a
written opinion nor was the District Court held to

10
any procedure; so there was no improvement at all in
the percentage of cases that were granted a written
opinion. To the contrary, written opinions from the
District Court were becoming increasingly rare as
the District Court continued trying to reduce their
own heavy caseload by disposing of cases as quickly
as possible by increasing their use of PCA’s without
an opinion.
In a vicious circle, the DCA was increasing the
use of PCA’s without an Opinion (see 4th District
Court PCAs without Opinion Case Load Report)
while the parties in need of written opinions to
obtain jurisdiction of their cases in the Supreme
Court were finding them more and more impossible
to obtain.
Written opinions are now so rare, that the vast
majority of the population has effectively been
banned from access to the Florida Supreme Court
(Without Explanation, p. 22; 4th DCA PCA Data
Report).
The Florida Legislature began writing rules
around the PCA Standard even though the PCA
Standard was never actually written into law. The
Legislature made an addition to the Florida Rules of
Appellate Procedure which further stripped
jurisdiction from the Supreme Court to hear matters
related to any case issued without a District Court
written opinion. The new rule states that the
Supreme Court itself was barred from hearing any

11
case without a written opinion (rule 9.030(a)(d) and
the Supreme Court was now legally mandated to
dismiss any appeal from a party who was without a
written opinion and further that that party cannot
file a motion for reconsideration or clarification
regardless of the merits of their case (rule
9.030(a)(d).)
In a twist of irony: the highest court of the land,
the Florida Supreme Court, was now stripped of its
own jurisdiction to hear conflict law and
constitutional law questions which was the very
purpose of its existence.
The Supreme Court’s “discretion” to
review a case was now extinct and in its place
was the District Court’s exclusive control of the
Supreme Court’s jurisdiction.
There was an original legislative intent to
reduce the Florida Supreme Court’s workload down
to a category of cases dealing with conflict law and
constitutional law, however, the new laws were never
intended to completely block cases that had genuine
issues of conflict law and constitutional law from
being able to reach the Supreme Court which is what
is happening currently in Florida.
The PCA Standard has been fully embraced by
the court justices; the District Court has been
declared the “final court” (Taylor v. Knight, 234 So.
2d 156, 157 (Fla. 1st DCA 1970); In re Report of the
Committee on Dist. Court of Appeal Workload &

12
Jurisdiction-Rule of Judicial Admin 2.036, 921 So.
2d 615, 617 (Fla. 2006) and many District Court
justices have admitted they feel compelled to uphold
the legislative intent of the statute to help reduce the
workload of the Supreme Court by withholding a
written opinion while other DCA Justices feel that
cases which warranted opinions and needed Supreme
Court review were unfairly declined (PCA Report;
and PCA Report Id. at 53 (Elligett, dissenting).
There is a withholding of jurisdiction on cases when
the District Court justices do not believe they have
merit for Supreme Court review (PCA Report; Elliott
v. Elliott, 648 So. 2d 137 (Fla. 4th DCA 1994);
Whipple v. State, 431 So. 2d at 1015-16). But it is
improper for the DCA Justices to control which
cases have merit in the Supreme Court because
it would be impossible for the DCA to remain
impartial to their own rulings.
When DCA’s “written opinions” became the sole
access to Supreme Court jurisdiction in a case, it
placed the DCA in the unenviable and impossible
position of a quasi-legislative body and created
unconscionable conflicts of interest where the
District Courts have to choose between either
reducing their own case load or being responsible for
reducing the case load of the Supreme Court both of
which ultimately left the parties constitutional rights
to due process and access to the court as a secondary
judicial concern.

13
This conflict of interest and the limitations to
access to the Supreme Court created a firestorm of
controversy and objections by attorneys, judges and
parties to lawsuits who felt they Were being barred
from access to the Supreme Court even when their
cases clearly involved conflict law or had legitimate
constitutional questions which only the Supreme
Court could legally answer under their mandate of
the Florida Constitution.
Various articles were written (please see Table
of Authorities Articles Section): (1) Without Opinion
(2) PCA, Around the Brick Wall (3) Conflict PCA (4)
Oh no! Not a PCA! (5) Mandamus; A Creative
Solution To Formidable Jurisdictional Hurdles (PCA)
(6) etc.
And Scores of attorneys objected to the PCA
Standard (PCA Report- App. I and various PCA
Articles).
“Most of the judges and state attorneys who
responded saw no significant problem with the
present use of the PCA, while many public
defenders and private bar members who
responded want the district courts to either
curtail or eliminate the practice...Among the
arguments made in opposition to the use of the
PCA are that it fosters unprofessionalism by the
bench and bar, diminishes the appearance of
fairness and meaningful access to the courts,
limits possible review by the Supreme Court,

14
conceals inconsistent results, and allows the
judiciary to avoid difficult decisions. A summary
of the various responses is located in Appendices
F, G, H, and I.”(p. 11 Committee Report).
There were also articles written and concerns
about violations of the Separation of Powers by using
the PCA Standard with articles citing Federalist
Papers, Judicial Restraint and Separation of Powers.
The PCA only dictates an outcome without
explanation...The judicial branch, in contrast, is
not intended to exercise will, such as through
policy choices ,but should instead limit its
inquiry to law and judgment. Indeed, the basis
for the judicial power, which is referenced in
Article V, Section 1 of the Florida Constitution,
is found in Federalist Number 78 (Leen, Craig.
Without Explanation p. 11,)... One significant
concern with a PCA is that it is the
quintessential outcome determinative decision
or, in other words, an exercise of will. (pg. 12)
...., the issuance of a PCA effectively eliminates
the jurisdiction of the Florida Supreme Court to
hear the case, even if the outcome of the case
would differ among the DCAs. This is troubling,
to say the least, as it allows the District Courts to
control the jurisdiction of the Supreme Court.
For example, imagine a situation where there are
binding precedents in conflict within the five

r
15
DCAs. This would typically be a good situation
for the Florida Supreme Court to take
jurisdiction and resolve the conflict. The present
PCA practice could frustrate Florida Supreme
Court jurisdiction, however, as the District
Courts might issue PCAs in each case based on
the preexisting precedents in their Districts.
..After the matter is decided, all subsequent cases
raising that issue may be decided by PCA, which
will effectively eliminate any possibility for the
matter to be brought to the Florida Supreme
Court as there would be no further opportunity
for conflict or another basis under which the
Supreme Court could review the matter. This
would effectively end development of the law in
that particular area (p. 14)
Ironically, this instant case is trying to contest
the PCA Standard as being unconstitutional as the
Mother will never be in a position to go before the
Florida Supreme Court for review; she is blocked by
that self-same PCA Standard which places this
instant case perpetually beyond the reach of the
Florida Supreme Court.
In a vicious loop, individuals like the Mother
who receive a “PCA without Opinion” are the very
people who would challenge the PCA standard as
unconstitutional, but because those very individuals
now hold a “PCA without opinion” they are forever
barred from Florida Supreme Court jurisdiction—

16
which is the only court in Florida that can overturn
the PCA laws.
There is also a real impact of the PCA Standard
on the workload of the U.S. Supreme Court who is
now hearing cases which leapfrogged over the
Florida Supreme Court. This is burdening the U.S.
Supreme Court clerks and justices with thousands of
additional hours for cases that could have been heard
by the Florida Supreme Court, which was the
rightful starting venue (See Impact on U.S. Supreme
Court below).
FACTUAL BACKGROUND:
The Mother brought an enforcement action in
the Florida family court against a high-income
Father who hired an aggressive and experienced
attorney. The Mother being the poorer parent
sought temporary attorney fees so both parties could
be on equal footing at the court hearings under
Florida statute 742.045 and Rosen v. Rosen, 696 So.
2d 697, 699 (Fla. 1997). The Family court made an
error in law which left the Mother without an
attorney for critical hearings. In a concurring
opinion, the Florida District Court acknowledged
that the family court had, erred in law when the
family court concluded the Mother could not be
awarded temporary attorney fees as a pro se litigant
and the family court improperly required the Mother
to first retain an attorney before she could be
awarded temporary attorney fees (Perlow v. Berg-

17
Perlow, 875 So. 2d 383, Fla. 2004) The family court
had also compounded the harm by failing to provide
a written order for 16 months which left the Mother
without representation at critical hearings on the
child’s medical and educational needs (App. D and
E).
The Mother appealed several of the family court
rulings including the temporary attorney fees order
and educational fees in the Fifth District Court of
Appeals in Florida (DCA). The Mother cited the trial
court made an error in law, she was prejudiced by
not having an attorney, the delays in rendering the
rulings caused harm when time was of the essence,
and the educational order violated her parental
rights to choose her child’s education among other
arguments.
The Fifth District Court of Appeals (DCA)
issued a per curiam affirmed without an opinion
which is colloquially known in Florida as a “PCA
without an opinion”(App. A). However, within the
PCA ruling there was a concurring opinion which
stated the Mother was correct that the Family Judge
had erred in law but that the DCA did not find it
caused harm since the Mother could now seek new
attorney fees moving forward. The Mother filed a
Motion for Rehearing and Request for Written
Opinion which stating there was harm as she was
prejudiced by not having an attorney in the previous
hearings and past attorney fees were now due

18
because the court required the Mother to first retain
an attorney.
Within the rehearing motion, the Mother also
stated her wish to seek review of her case with the
Supreme Court of Florida and she requested the
DCA provide the Florida mandated “written opinion”
so the Mother could file a petition for Florida
Supreme Court review to address conflict law and
constitutional concerns in her case. The DCA denied
the Mother’s request for the required written opinion
(App. B).
Because Florida courts specifically require a
“ticket” to entry into the Florida Supreme Court
Jurisdiction in the form of a “written opinion” from
the DCA; without the written opinion, no party
(including the Mother) can seek a Florida Supreme
Court review of their case. Because Florida courts do
not recognize concurring or dissenting opinions as
qualifying as a “written opinion” for purposes of
seeking review by the Florida Supreme Court
(Jenkins, 385 S.2d at 1359.; Reaves v. State, 485 S.2d
829, 830 (Fla. 1986), even though the Mother had a
concurring opinion supporting her position and
showing it was a conflict law case with constitutional
questions; the Mother was still without Supreme
Court Jurisdiction over her case.
When the Mother was denied a “written
opinion” by the DCA her case was automatically and
simultaneously prevented from having Florida

19
Supreme Court’s jurisdiction and also from the
Supreme Court’s discretion to review her case on its
merits and the Florida Supreme Court was
mandated to dismiss her case without review for lack
of jurisdiction. (App. F and G).
The Mother’s position was that the withholding,
stripping, or denial of Supreme Court jurisdiction
over her case based solely on her not having a
written opinion by the DCA was in absolute
opposition to the Florida Constitution which
mandates that the Florida Supreme Court is the only
court authority with the discretionary power to
review and overturn District Court decisions. So the
Mother asserted that the refusal of the DCA to
provide the required written opinion had allowed the
DCA to prevent their own ruling from being reviewed
or overturned by the Florida Supreme Court and was
a conflict of interest and unconstitutional. In an
attempt to address the unconstitutional use of a PCA
to block access to the Supreme Court, the Mother
filed another Motion with the DCA requesting that
the DCA certify a question addressing the
unconstitutionality of using a PCA with opinion
standard as the only means to access jurisdiction of
the Florida Supreme Court . The DCA denied the
Mother’s request to certify a question (App. C).
In a final attempt to have her case heard in the
Florida Supreme Court, The Mother attempted to file
two appeals within the Florida Supreme Court itself.
The first appeal was asking for review of the

20

potential constitutional violations of Florida using a
“PCA with written opinion” standard as the only
means to obtain jurisdiction of a case in the Florida
Supreme Court and the Mother’s Second appeal
related to the conflict law and constitutional
violations within her family law case. Both the
Mother’s cases were promptly dismissed by the
Florida Supreme Court for lack of jurisdiction
specifically citing that the Florida Supreme Court
did not have jurisdiction because the DCA had failed
to provide the required written opinion (App. F&G;
FI Rule 9.330(a)(d)). The Florida Supreme Court
further stated that there would be no reconsideration
and any future filing in the Supreme Court were
barred due to lack of jurisdiction.
The Mother’s case was completely blocked from
access to the Florida Supreme Court, leaving the
Mother with the only resolution of filing a case with
the U.S. Supreme Court.

REASONS FOR GRANTING THE WRIT
SUMMARY OF THE ARGUMENT:
It is not for the District Courts to
singularly decide and control which cases have
merit in the Supreme Courts, that is the
exclusive domain of the Supreme Court itself.

p

21
Florida’s use of a “PCA without Opinion” to
intentionally block a Supreme Court’s jurisdiction
over any case has far reaching consequences for
every state in the U.S. and impacts the Federal
Courts and the U.S. Supreme Court. If left to stand,
Florida’s law will open the flood-gates for other
states to follow Florida’s example and Congress
would be able to enact laws which would give power
to U.S. District Courts of Appeals to strip the U.S.
Supreme Court of jurisdiction over cases when the
U.S. District Court of Appeals simply does not want
their own rulings overturned or reviewed.
Further, Florida’s singular dependence on the
narrowly defined constitutional term ‘expressly’ to be
the exclusive domain of a DCA’s written opinion for
Supreme Court Jurisdiction has been catastrophic to
constitutional rights of litigants in Florida.
The PCA Standard which barred access to the
Supreme Court for the Mother; violates Article VI
which allows the Mother the right to petition the
court; the Mother’s fourteenth amendment rights of
due process and equal treatment; Article l’s
Supremacy Clause; Separation of Powers and the
Mother’s right to be heard and to access to the court.
It further violated the Mother’s rights under
Florida’s constitution for due process, equal
treatment and access to the court. Violations of U.S.
and Florida CONSTITUTION: U.S. Const, amend. I;
U.S. Const, amend. XIV, § 1U.S; . Const, article VI;
Art. I, § 2, Fla. Const.; Art. I, § 9, Fla. Const.;Art. I, §

22

21, Fla. Const.; Art. V, § 3, Fla. Const.;Art. V, § 4,
Fla. Const.
FLORIDA’S PCA STANDARD:
Florida’s required “PCA with written opinion”
standard to obtaining Florida Supreme Court
jurisdiction is unconstitutional for at minimum three
reasons:
1) It is a conflict of interest for the Florida
District Court of Appeals (DCA) to control
jurisdiction over if the DCA’s own cases can be
reviewed or overturned by the Supreme Court while
it abolishes the “discretion” of the Supreme Court
itself to choose which cases merit review.
2) It is a violation of the Fourteenth
Amendment’s due process, equal protection and
access to the courts for individuals to be randomly
divided into unequal and arbitrary classes where one
class is allowed Supreme Court Jurisdiction and the
other class is denied access to the Supreme Court
without regard to the merits of the case. It is also a
violation of the Article VI Supremacy Clause and
right the to petition the court.
3) The “PCA without opinion” standard is a
violation of due process, access to the courts and
equal protection in family law cases like this instant
case because the State and Federal governments
already have a monopoly over paternity cases which
force parents into the courts system and impinged on

23

parental rights under the premise of the court having
the superior ability to determine the “best interest of
the child” and have removed rights such as a jury
trial. So laws that would further restrict or reduce a
parent’s legal access to the courts or limit a parent’s
ability to seek full relief at every level including the
Supreme Court violates the parent’s due process and
equal protection rights and is not in the best interest
of the child over which the federal and state courts
and government have asserted exclusive legal control
(Boddie v. Connecticuit).
THE FAMILY COURT CASE:
In the Mother’s Family Court Case, her Florida and
U.S. Constitutional rights were violated in several
ways:
1) It was a violation of the Mother’s
constitutional rights, when the Mother was not given
due process or an opportunity to be heard in a
meaningful way when she was denied a proper
hearing for temporary attorney fees due to a court’s
own error in law; where the ruling was delayed 16
months; and thereafter when she was denied a new
hearing after being left pro se at critical hearings for
the child’s medical and educational needs.
2) Time is of the Essence in Paternity Cases:
The Mother had a right to timely rulings and was
prejudiced with her due process and other rights
violated when the family court had caused repeated
and substantial delays in rendering rulings; when

24
the rulings were made without benefit of a transcript
16 months after the hearing; and where the ruling
was not in best interest of the child.
3) The Mother’s parental, contractual and
constitutional rights to choose her child’s educational
were violated when the family court overreached into
the case to make certain decisions about the child’s
education.
SUPPORTING ARGUMENT SECTIONS:
THE PCA STANDARD
SECTION ONE:
FLORIDA’S UNEQUAL DIVISION OF
PARTIES INTO CLASSES FOR ACCESS TO
SUPREME COURT JURISDICTION
One class of citizens in Florida is being given a
“PCA with an Opinion” which is the golden ticket to
granting that party access to seek an appeal in the
Supreme Court while a second class of citizens is
given a “PCA without an Opinion” and that second
class of citizens is denied equal access to seek an
appeal to the Supreme Court. This separation of
citizens into unequal classes which restricts one
class’s access to the Florida Supreme Court’s
Jurisdiction is in violation of U.S. Constitution’s
Fourteenth Amendment’s Equal Protection Clause
and also Due Process Provisions. The practice is also
in violation of Article 1 of Florida Constitution to
petition and access courts.

si

25
Florida has created a mechanism by which the
Florida Supreme Court is available, but the path to
review is impeded by a “per curiam affirmed with
written opinion” standard that is either non-existent
or impossibly vague and/or unfairly applied; thus
leaving it to the Florida District Courts of Appeal to
decide arbitrarily, through the exercise of unfettered
discretion, which cases get reviewed and which cases
don’t while the application of the standard is wholly
unreviewable. While the vast majority of PCA’s are
likely entered based on wholly legitimate grounds,
the inability to ascertain whether some standard was
met creates due process, equal protection and access
to the courts violations and is unconstitutional.
The Mother asserts that the systematic use of a
“PCA without an Opinion” to specifically withhold
jurisdiction of her case from reaching the Florida
Supreme Court for potential review based exclusively
on a lack of written opinion is a violation of the
Mother’s Florida Constitution and the U.S.
Constitutional rights regarding due process, equal
protection and access to the courts, especially in her
paternity and child support case where the courts
have obtained absolute power over paternity cases
and are the courts are the only means of resolution
(Boddie v. Connecticut, 401 U.S. 371 (1971).
(Wording altered from another ruling): Florida
allowed the Petitioner access to the first phase of
the appellant procedure in the District Court but
has effectively foreclosed access to the second

26

phase of that procedure solely based on a failure
and refusal of the District Court to provide a
written opinion.
There is no rational basis for assuming that the
motions for appeal to the Supreme Court will be
less meritorious for those who have received a
“PCA with an Opinion” than those who did not
receive an opinion. Therefore, both classes
should have the same opportunities to invoke the
discretion of the Supreme Court of Florida.
The Mother has been left with unequal access to the
Florida Supreme Court when the Florida Supreme
Court would have otherwise had discretion and
jurisdiction to review the matters of conflict law and
Florida Constitutional law involved in the Mother’s
case; the withholding or barring of the Mother from
Supreme Court Jurisdiction was a violation of the
Mother’s Fourteenth Amendment right to due
process, equal protection, and access to the courts.
SECTION TWO:
DCA’s CONFLICT OF INTEREST IN
CONTROLING SUPREME COURT JURISDICTION
When the Florida Supreme Court was
established it was well recognized that the District
Court can and will make mistakes, even when
populated by an educated, ethical and capable panel
of District Court justices.
Those District Court
Justices no matter how worthy, cannot and should

27
never be given the exclusive power to prevent their
own inaccurate rulings from reaching the Supreme
Court for review. To give the District Court such
unchecked power over their own rulings creates a
fundamental conflict of interest where no District
Court Justice could ever be seen as remaining
impartial.
Further, conflict law cases are birthed from
the District Court’s rulings and can only be resolved
in the Supreme Court; so it is counter intuitive that
the District Court’s itself holds the power to block
those conflict law cases from ever reaching the
Supreme Court for resolution (DCA Assessment,
n.2, at 19-20, 32; Fla. Code Jud. Conduct Canon
3E(1); DCAs, PCAs, and Government in the
Darkness, 1)
Additionally, DCA Justices have no guidelines,
no formal checklists and no procedures for providing
written opinions which can be equally applied to all
citizens. The process is wholly arbitrary and
inconsistent across all five Florida Districts Courts.
There is currently no way to hold the District Court
accountable and no recourse when the District
Court’s granting or denial of a written opinion is
unjust, incorrect, or unequally applied. There is
absolutely no standard and no transparency.
A trial court would not be allowed to render a
ruling without explanation and still expect it to
stand because the District Court of Appeals would

28

have the power to overturn it. So too is a District
Court decision reviewable and accountable in the
Florida Supreme Court; and thereafter the Florida
Supreme Court is at times accountable to the U.S.
Supreme Court. However, the PCA standard in
Florida improperly breaks that chain of
accountability and violates a party’s right to
transparency, due process and access to the courts.
If the judiciary has the privilege to be able to
have appellate panels meet together and discuss
cases in private, it is consistent with principles of
the sunshine laws to ensure that at least any
final decisions are made public in full.
Otherwise, the concern exists that both the
deliberations and the reasoning in support of the
outcome remain outside of public review....See:
Craig E. Leen, Without Explanation: Judicial
Restraint, Per Curiam Affirmances, and the
Written Opinion Rule, 12 FIU L. Rev. 309
(2017).)
Alternatively, if Florida is allowed to continue to
prohibit cases from reaching the Supreme Court by
using a “PCA without an opinion” standard then the
Florida District Court should be mandated to either
provide the required written opinion when
specifically requested by a party for the purpose of
Florida Supreme Court review of their case (such as
in the Mother’s case) or the District Court should
recuse themselves from the case completely and
jurisdiction should automatically vest in the

r

29
Supreme Court to avoid a conflict of interest from the
District Courts.
The District Court Justices were never endowed
with the authority to decide the merits of a Supreme
Court case, yet that is the power they have been
given under the PCA Standard.
Arthur J. England, Chief Justice of the
Supreme Court: “The Florida Constitution
expressly places in the hands of the Supreme
Court justices, not district court iudees. the
discretion to decide whether the high court will
review a district court decision. Unless the
district court finds no validity in appellate
counsel’s certification, in which case the court
could say just that in an order denying the
motion, an opinion should be written that
legitimately poses a basis for Supreme Court
review. District court judges lack the
institutional experience to make judgments on
the range of reasons which go into the exercise of
discretion by the justices to review, or not review,
any particular district court decision at any
particular point in time. Only the justices can
evaluate a review-worthy decision of a district
court to determine if the time is propitious to
exercise the court’s policy-making responsibility”
(PCAs In The DCAs: Asking For Written Opinion
From A Court That Has Chosen Not To Write
One.).

30

It is a violation of the U.S. Constitution’s Fourteenth
Amendment; Supremacy Clause and Separation of
Powers for the District Court to have the unchecked
power to control jurisdiction of the Florida Supreme
Court.
SECTION THREE:
RIGHT TO REVIEW vs. EQUAL ACCESS TO
THE SUPREME COURT
This case is about “Equal access to the Florida
Supreme Court”, it is not about a “Right to Review”.
The Florida Supreme Court and District Courts
misapprehend arguments from previous parties who
have objected to a PCA without opinion as an
unconstitutional standard to Supreme Court
jurisdiction when those courts found the PCA
arguments would always fail simply because no
individual is entitled to a “right” to review from the
Supreme Court (Jollie v. State; R.J. Reynolds
Tobacco Co. v. Kenyon; Stallworth v. Moore; Whipple
u. State).
Whipple v. State, 431 So.2d 1011, 1013-14 (Fla.
2d DCA 1983) (rejecting an argument that district
court’s unelaborated per curiam affirmance of the
trial court’s decision thwarted right of access to the
courts because the constitution’s guarantee of a right
to review does not extend to supreme court review);

r
31
This case is not about a “right to review” it is
about “equal access to the Florida Supreme
Court” Every individual who has a case of similar
merit should also have the equal opportunity to seek
a review of their case in the Supreme Court; the
Supreme Court should also have equal jurisdiction
over similar cases as it is axiomatic that the
Supreme Court should have equal discretion to
review similar cases if a party seeks Supreme Court
review.
The “right to review” is not at issue. It matters
not if the Florida Supreme Court ultimately (and at
their own discretion) decides to accept or deny review
of the Mother’s case. The Supreme Court’s own
choice to take up a case is ultimately irrelevant to
the current issue.
This is about the District Court having the
unfettered ability to prevent, withhold, or strip the
Florida Supreme Court from having any discretion or
jurisdiction over a case.
The important issue in this case is that Mother
(and thousands of other parties in Florida) are
randomly being denied jurisdiction of their cases
within the Supreme Court while other cases of
similar or lesser merit are granted jurisdiction in the
Supreme Court.
In the current system, the Florida Supreme
Court itself does not have the power to reach down
and pick up a case that the Supreme Court itself

32

deems worthy of merit and District Courts have
intentionally withheld written opinions for the
specific purpose of preventing the Florida
Supreme Court from having any power to
review or overturn their cases.
The Supreme Court itself has been denied a
written opinion from the District Court when the
Supreme Court wanted Jurisdiction in a case it
believed had merit (Foley v. Weaver Drugs, 177 So.
2d at 226).
R.J. Reynolds Tobacco Co. v. Kenyon, 882 So. 2d
986, 989 (Fla. 2004) (recognizing that the district
court has “inherent discretion” to decide whether to
write an opinion, and this Court does not have
authority to order a district court to write an
opinion).
In the Mother’s case, she has no access to the
Florida Supreme Court at all; even though a Florida
Supreme Court exists and that Florida Supreme
Court is mandated with the only authority and
power to review and overturn the district court cases;
conflict law cases; and questions of constitutional law
such as those in the Mother’s case.
SECTION FOUR:
LEGISTLATIVE PURPOSE v. STATE’S
MONOPOLY IN CHILD SUPPORT CASES:
PARENT’S RIGHT TO ACCESS TO ALL COURTS

33

The District Court justices are ethical,
hardworking and highly intelligent so this case is
absolutely no reflection on the esteemed justices of
any District Court. However, the application of a
PCA into a legal standard was wholly improper as it
anointed the District Court into the “final court”
whose decisions could not be questioned or reviewed
by the Florida Supreme Court, yet the District Court
was never endowed by the constitution to be the final
court, nor were District Court Justices deemed to
have the experience or constitutional powers to
decide matters related to the constitution or conflict
law; and despite the integrity and intellect of the
honorable District Court justices they can never
impartially review their own decisions.
While the state’s interest in reducing the
Supreme Court’s case load is valid and reasonable;
there are other alternative means to accomplish the
goal which do not involve randomly restricting one
class of citizen’s rights to seek appeal to the Supreme
Court and does not eviscerate the very purpose of the
Florida Supreme Court which is to review District
Court cases, conflict law and answer questions of
constitutional law.
District Court Justices have had to adopt a
quasi-legislative view that the District Court’s job
was to use the “PCA without opinion” rulings to help
reduce the workload of the Florida Supreme Court.
However, that is not a mandate given to the District
Court by law or the Florida Constitution; and to do

34
so places the District Courts in a position where they
are overreaching and using their rulings to balance
the state’s budget by intentionally denying access to
the Supreme Court to a randomly selected group of
parties. The District Court’s job is not to reduce the
workload of the Supreme Court, in fact to take on
such a mandate is a violation of the Separations of
Powers where the District Court becomes a quasi­
legislative body making rulings on cases purely
based on the financial or workload impact those
cases “might” have on the court docket which violates
a parties right to fair rulings.
It is without question, that all the Justices in
the District Court should be esteemed and respected
and may one day move on to the Supreme Court but
they are not yet in a position where they have been
publically appointed to that role; yet all the District
Court justices now act as a quasi-Supreme Court
by having the sole authority to determine which of
their own cases are worthy of review in Supreme
Court which violates an individuals’ constitutional
rights to due process, equal treatment and access to
the court.
The current power given to the District Court
to control which cases make it to the Supreme Court
is counter-intuitive to allowing the Supreme Court
themselves choose which cases have merit.
STATE’S MONPOLY IN CHILD SUPPORT CASES:

35

The legislative goals of reducing the Supreme
Court’s workload are also inferior to the parent’s
right to access to the Supreme Court. Federal law
requires each state inclusive of Florida create and
maintain procedures to collect and enforce child
support and create oversight in child custody
decisions (Child Support Recovery Act (CSRA) 1992;
The Family Support Act (FSA) of 1988; Child
Support Enforcement Amendments of 1984 (CSEA)
;18 U.S.C. § 228; Boddie V. Connecticut). Florida has
a monopoly on paternity cases, forcing the parents
into the Florida court systems and limiting the
parent’s ability to independently contract or resolve
issues outside of court. This is done under the
premise of the best interest of the child. As in
Boddie, this means that Florida courts have a
greater responsibility to ensure that their rulings are
right in both law and equity (Boddie v. Connecticut,
401 U.S. 371 (1971). In this case, the Mother was
stripped from the ability to access the highest court
which was the Florida Supreme Court and where the
Supreme Court was specifically and constitutionally
mandated with the power to address her conflict law
and constitutional questions; the Mother was
improperly denied access to the court. The District
Court did not have the authority to address the
Mother’s questions related to conflict law and
constitutional law so without access to the Supreme
Court, the Mother’s constitutional rights of due
process, equal protection and access to the courts

36

along with her fundamental rights to fairness were
violated.
QUESTION TWO: ARGUMENT:
The Mother recognizes that the above argument
related to the PCA Standard is of far more public
importance than her personal family law case.
However, the Mother would still like this court to
consider that her family law case also holds matters
of great public importance and constitutional
questions that should also be considered and
reviewed by the Court and requests she be able to
more accurately argue her case in her brief if her
writ for certiorari is granted.
“Cases like this do not present a bipolar struggle
between the parents and the State over who has
final authority to determine what is in a child's
best interests. There is at a minimum a third
individual, whose interests are implicated in
every case to which the statute applies — the
child. ” Troxel v. Granville, 530 U.S. 57 (2000).
FAMILY COURT CASE ARGUMENTS:
1. A Custodial Parents Right To Equal
Representation
2. Time Is Of The Essence In Child Support
Cases
3. Entitlement To Timely Rulings
4. Public Trust In Child Support Cases
5. Parents Right To Choose Education

F
37

The Fourteenth Amendment's Due Process
Clause has a substantive component that "provides
heightened protection against government
interference with certain fundamental rights and
liberty interests," Washington v. Glucksberg, 521
U.S. 702, 720, including parents' fundamental right
to make decisions concerning the care, custody, and
control of their children, see, e.g., Stanley v. Illinois,
405 U.S. 645, 651. Pp. 5-8.
IMPACT ON THE U.S. SUPREME COURT
THE U.S. SUPREME COURT HAS UNFINISHED
BUSINESS IN THIS CASE:
In addition to the constitutional impacts on the
individuals; the U.S. Supreme Court itself has a
dog in this fight.
When the PCA Standard was implemented,
cases began to leapfrog over the Florida
Supreme Court and land in the U.S. Supreme
Court.
So while Florida was succeeding in reducing
their own judicial costs by limiting access to the
Florida Supreme Court it caused the workload of the
U.S. Supreme Court to increase with Florida cases.
To date, the U.S. Supreme Court has already taken
on half a dozen cases (if not more). It is without
question that for every one case that is accepted by
the U.S. Supreme Court; there are hundreds or
thousands that are denied. That means for all those

38

“denied” petitions that originated from Florida, the
U.S. Supreme Court and it’s clerks and justices have
already had to spend thousands of hours reviewing,
preparing pool cert, memos and participating in
conferences at the petition stage.
So the U.S. Supreme Court is wasting precious
juridical recourses on cases which the Florida
Supreme Court is perfectly capable of hearing if it
had not been for the stripping or withholding of the
Florida Supreme Court from hearing its own state’s
cases.
Florida is but one state: if all 50 states were to
adopt the Florida PCA practice— the U.S. Supreme
Court would become the defacto-state supreme
court for all 50 states and cases from every
begin
leapfrogging
can
single
state
constitutional questions into the U.S. Supreme
Court; all because 70% of their own State
populations have been left without access their own
state supreme courts to answer conflict law and
constitutional questions under a PCA Standard.
Even though the Florida Supreme Court lacks
jurisdiction, SCOTUS has already taken cases from
Florida’s DCAs (who issued PCAs). And SCOTUS
has reversed those PCA rulings which clearly shows
the District Courts can and do make mistakes which
should be reversed.
It is not uncommon for the U.S. Supreme Court
to pick up a case with a PCA in either the District

39
Courts or State Supreme Courts so why is the
Florida Supreme Court prevented from picking up
their own District Court’s cases? One of the most
famous SCOTUS/Florida cases in history, Gideon u.
Wainwrisht. went to SCOTUS from a PCA issued by
the Florida Supreme Court. So if a PCA by the
highest court in Florida can be overturned by U.S.
Supreme Court how is that a Florida District Court’s
case is immune from review by its own Florida
Supreme Court?
The U.S. Supreme Court has already had to rule
on multiple Florida District Court matters because
the Florida Supreme Court was denied jurisdiction
over their own state’s cases due to PCA Standard;
just a couple examples: T) Hobbie v. Unemployment
Appeals Commission of Florida 2) Palmore v. Sidoti
3) Brooks v. State.
This case has implications not only for Florida
litigants but also for every state supreme court in the
nation. If left to stand, Florida’s Supreme Court
jurisdiction stripping laws will set the precedent for
every other state in the nation to begin the process of
jurisdiction stripping of their own Supreme Courts
which ultimately threatens the U.S. Supreme Court’s
own jurisdiction over U.S. District Court’s cases
because if it is allowable for the States to engage in
jurisdictions stripping of their own state supreme
courts why can’t Congress also make similar laws
which give the U.S. District Court of Appeals the
power to strip or withhold jurisdiction of their own

40
cases from the U.S. Supreme Court? This would
mean that the U.S. District Court of Appeals would
have unilateral power to prevent the U.S. Supreme
Court from ever hearing questions on U.S.
Constitutional law and conflict law if and when the
U.S. District Court of Appeals does not wish to
authorize it. The current Florida PCA Standard is
setting a precedent for other State and Federal
Courts.
CONCLUSION
In the Mother’s case, she had both conflict law
and constitutional concerns about the Family Court
and District Court’s rulings which could only be
resolved by review from the Florida Supreme Court.
Florida’s “PCA with written opinion as the Standard
to Supreme Court Jurisdiction” and The District
Court’s failure to provide that mandated written
opinion barred the Mother from access to the Florida
Supreme Court and violated her constitutional rights
to due process, equal protection and access to the
courts.
In the current Florida System; the Mother
cannot reach up for help from the Florida Supreme
Court and the Florida Supreme Court is denied the
power to reach down and take up the Mother’s case
even if the Supreme Court believes the Mother’s case
is worthy of review and the only obstacle is the DCA
refusing to provide the Mother with the required
“written opinion”.

41
Florida’s use of a “PCA’s without an opinion” to
bar the Mother and others from Florida Supreme
Court jurisdiction over their cases is unconstitutional
(or unconstitutional as applied) and the Mother
should be allowed to seek review from the Florida
Supreme Court of her case or in the alternative, the
Fifth District Court should be required to provide the
mandated “written opinion” for the purpose of
granting the Florida Supreme Court jurisdiction to
review her case.
It is the Mother’s position that the PCA
Standard should be overturned as unconstitutional
and Florida should be required to the replace it with
a standard that will allow equal access to the Florida
Supreme Court to Florida litigants.
The Mother respectfully requests the U.S.
Supreme Court grant the writ for certiorari.
Respectfully Submitted,

Cheri Melchione, pro se
1818 MLK Blvd #129
Chapel Hill NC 27514
919-240-5100
dharmaone2020@gmail
Date: March 22, 2021

